No.

IN THE

Supreme Court of The United States
OCTOBER TERM, 2019

ROBERT JODOIN,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Robert Jodoin, has enclosed Petition for Writ of Certiorari to the United
States Court of Appeals fot the Eleventh Circuit without prepayment of costs and to proceed in
Forma Pauperis in accordance with Supreme Court Rule 39, and, 18 U.S.C. ยง 3006A(d)(6). The
filing of this Petition is a continuation of the representation of the Defendant under a Criminal
Justice Act appointment of the undersigned by the Eleventh Circuit. In accordance with 18
U.S.C. ยง 3006A(d)(6), no Affidavit as required by Supreme Court Rule 39, need be filed.

WHEREFORE, Petitioner Robert Jodoin, asks for leave to proceed in Forma Pauperis.

Dated this 5" day of August, 2020.

Y

Noel G. Lawrence, Esquire

Florida Bar No: 844251

101 East Union Street, Suite 200
Jacksonville, Florida 32202
Telephone: 904-356-9928

Facsimile: 904-356-6762

Email: nglawren@Ipnlaw.com
Attorney for Petitioner, Robert Jodoin

36
